               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




         POSTAL SERVICE INITIATIVE:
           Consolidation of Mail for
           Transportation Between
         Network Distribution Centers

                       Audit Report




                                              May 29, 2012

Report Number NL-AR-12-006
                                                                           May 29, 2012

                                                      POSTAL SERVICE INITIATIVE:
                                                               Consolidation of Mail
                                                        for Transportation Between
                                                       Network Distribution Centers

                                                        Report Number NL-AR-12-006



IMPACT ON:
Highway contract route (HCR) surface            managerial presence is needed at the
transportation between network                  consolidation facilities.
distribution centers (NDCs).
                                                WHAT THE OIG RECOMMENDED:
WHY THE OIG DID THE AUDIT:                      We recommended the vice president,
Our objective was to assess the                 Network Operations, continue pursuing
efficiency of the U.S. Postal Service’s         opportunities to consolidate routes,
consolidation pilot (involving loading,         increase the required average trailer
unloading, and utilization) for long-           consolidation load ratio, and consolidate
distance HCRs between NDCs. The                 lanes for mail bound to Puerto Rico.
pilot included 19 transportation lanes,         Finally, we recommended managerial
17 HCRs, and 4 consolidators. We                oversight be provided at consolidation
initiated the audit based on an inquiry         facilities.
from the postmaster general and chief
executive officer.                              WHAT MANAGEMENT SAID:
                                                Management generally agreed with our
WHAT THE OIG FOUND:                             recommendations but not our monetary
The loading and unloading method used           impact, stating that they expanded the
before the mail consolidation pilot was         number of consolidation lanes in
efficient based on workhours; however,          February 2012, would continue to
it resulted in additional transportation        pursue additional opportunities and a
costs. We determined that the                   2.5:1 utilization ratio, as well as evaluate
consolidation increased mail handling           the consolidation of mail bound for
time and costs but saved money                  Puerto Rico. Management also stated
overall and improved trailer utilization.       they would conduct locally managed
We also found the use of contracted             quarterly meetings with contractors.
labor and facilities for consolidations
provides the most flexibility and savings.      AUDITORS’ COMMENTS:
We further determined that opportunities        Management’s comments are
exist to increase overall trailer utilization   responsive to recommendations 1, 2
by combining 2.5 trailer loads into one         and 3 but not to recommendation 4.
and by consolidating mail bound for             Management should pursue more
Puerto Rico. By doing so, we estimate           aggressive managerial oversight at
the Postal Service can save an                  contractors’ facilities to protect the
additional $7.68 million annually. Finally,     Postal Service’s interests.
we determined an onsite Postal Service
                                                Link to review the entire report
May 29, 2012

MEMORANDUM FOR:             DAVID E. WILLIAMS
                            VICE PRESIDENT, NETWORK OPERATIONS

                                E-Signed by Robert Batta
                              VERIFY authenticity with e-Sign




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                    Audit Report – POSTAL SERVICE INITIATIVE:
                            Consolidation of Mail for Transportation Between Network
                            Distribution Centers
                            (Report Number NL-AR-12-006)

This report presents the results of our audit of the U.S. Postal Service’s consolidation of
mail for transportation between network distribution centers (Project Number
11XG044NL000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody J. Troxclair, director,
Transportation, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    Timothy F. O'Reilly
    Cynthia F. Mallonee
    Corporate Audit and Response Management
POSTAL SERVICE INITIATIVE:                                                                                             NL-AR-12-006
 Consolidation of Mail for Transportation
 Between Network Distribution Centers

                                                 TABLE OF CONTENTS

Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 3

Mail Consolidation Impacts ................................................................................................. 3

Consolidation Resource Options ........................................................................................ 5

Other Matters ....................................................................................................................... 7

   Consolidation Ratio and Highway Contract Route Lanes .............................................. 7

   Postal Service Presence at Contractors’ Facilities ......................................................... 8

Recommendations .............................................................................................................. 8

Management’s Comments .................................................................................................. 9

Evaluation of Management’s Comments ............................................................................ 9

Appendix A: Additional Information................................................................................... 11

   Background .................................................................................................................... 11

   Prior Audit Coverage ..................................................................................................... 13

Appendix B: Monetary Impacts ......................................................................................... 14

Appendix C: Analysis of Surface Mail from Jacksonville Network Distribution Centers to
     Puerto Rico ............................................................................................................. 15

Appendix D: Lack of Postal Service Presence at Contractors' Facilities ........................ 17

Appendix E: Management’s Comments ........................................................................... 18
POSTAL SERVICE INITIATIVE:                                                                           NL-AR-12-006
 Consolidation of Mail for Transportation
 Between Network Distribution Centers

Introduction

This report presents the results of our audit of the U.S. Postal Service’s consolidation of
mail for transportation between network distribution centers (NDCs) (Project Number
11XG044NL000). Our objective was to assess the efficiency of the Postal Service’s
consolidation pilot (loading, unloading, and utilization) for long-distance highway
contract routes (HCRs) between NDCs. We initiated the audit based on an inquiry by
the postmaster general and chief executive officer to examine mail trailer loading and
unloading practices of the Postal Service. As part of the review, we also evaluated the
resource options available to perform the mail consolidations. See Appendix A for
additional information about this audit.

The Postal Service’s NDCs are part of a national system 1 consisting of 21 facilities with
a transportation network dedicated to handling and moving bulk mail 2 and some other
classes of mail. 3 Recognizing the opportunity to improve the efficiency of this dedicated
NDC transportation network, the Postal Service’s Network Operations (NO) began a
pilot to reduce the number of HCR trips between NDCs in September 2010. 4 The goal
of this pilot was to consolidate two HCR trips into one (2:1) by better utilizing the cubic
space in the trailers. The Postal Service accomplished this by using existing contracted
Terminal Handling Services (THS) 5 to perform the consolidations at contractor facilities
near the NDCs. The pilot included 19 transportation lanes, 17 HCRs, and
4 consolidators. See Figures 1 and 2 below, depicting trailer loading before and after
consolidation.




1
  The purposes of NDCs are to concentrate “… the processing of bulk mail to increase operational efficiency,
decrease costs, and maintain service, while expanding the surface transportation reach.”
2
   The term bulk mail includes Standard Mail, Periodicals, and Package Services mail classes with service standards
from 1 to 10 days.
3
  Some NDCs have incorporated surface transfer center operations that handle significant volumes of First-Class Mail
and Priority Mail.
4
  Two outbound New Jersey NDC long-distance transportation lanes were tested. The first involved bulk mail bound
for the Denver, CO NDC and the second involved bulk mail bound for the Los Angeles NDC.
5
  THS providers are responsible for the hand-off of mail between the Postal Service and Federal Express (FedEx) for
transportation.
                                                           1
POSTAL SERVICE INITIATIVE:                                                                                 NL-AR-12-006
 Consolidation of Mail for Transportation
 Between Network Distribution Centers




             Figure 1. Typically Loaded Trailers for Dispatch to Other NDCs




                          Source: OIG                                       Source: OIG

        Note the extensive use of container-loaded mail (palletized cardboard and rolling stock MTE)
        and the available vertical space in these trailers.

          Figure 2. Trailers Undergoing Consolidation by THS Mail Handlers
                    Prior to Transportation to the Destination NDCs




                          Source: OIG                                        Source: OIG

        Generally, mail found in palletized-cardboard-MTE (for example, Postal Paks) and palletized-
        shrink-wrapped parcels/flats are forklifted onto the trailer floor (sometimes stacked). Then the
        parcels, trays, and bins are placed in a way that uses the vertical space in these trailers.


The Postal Service expanded the consolidation pilot in April 2011 to include 19
dedicated lanes and completed it on September 30, 2011. The Postal Service reported
an overall reduction of 17 million highway miles with a net savings of about $4 million
during the pilot period from September 2010 through September 2011. See Appendix A
for more details.




                                                          2
POSTAL SERVICE INITIATIVE:                                                                         NL-AR-12-006
 Consolidation of Mail for Transportation
 Between Network Distribution Centers




Conclusion

Overall we concluded that:

   The existing loading and unloading method in place before the consolidation pilot
    was efficient from the standpoint of workhours; however, it resulted in additional
    transportation costs.

   Although the piloted method of consolidation increased mail handling time and costs,
    it saved money overall 6 and improved trailer utilization by a 2:1 ratio (2 trailers
    consolidated into one) without impacting service.

   The Postal Service’s use of contracted labor and facilities for consolidations provides
    management with the most flexibility and savings under existing operating
    conditions. 7

We also concluded that more opportunities exist to reduce transportation costs and fuel
usage through consolidation efforts. First, we estimate that the Postal Service could
save an additional $12 million over the 2 years (about $6 million annually) from the 19
piloted transportation lanes by increasing the overall trailer consolidation ratio from 2:1
to 2.5:1. Second, we estimate the agency could save an additional $3.3 million over the
2 years (about $1.7 million annually) by consolidating mail bound for the U.S. Territory
of Puerto Rico. See Appendix B for additional information.

Finally, we determined that the Postal Service needs to have an onsite managerial
presence at the contracted consolidation facilities to protect its interests.

Mail Consolidation Impacts

   While the piloted mail consolidation process requires additional mail handling time
    (to better utilize the available trailer space in the trailers) and adds to labor costs, it
    did save money and increased utilization because fewer trucks were used to move
    the same amount of mail. We analyzed the impacts by comparing the way the Postal
    Service transported bulk mail before and after consolidation and found the method in
    place before the mail consolidation pilot was efficient from the standpoint of
    workhours; however, it resulted in additional transportation costs. The arrows in
    Figure 3 indicate increase or decrease in various factors and the green or red colors
    indicate positive or negative movement.



6
  We analyzed the reported cost savings for reasonableness and accuracy and estimate the Postal Service saved
$10 million worth of fuel during the pilot phase in addition to the $4 million that was reported.
7
  The conditions include limited workspace at the NDCs and higher wage rates if Postal Service employees perform
consolidations.



                                                        3
POSTAL SERVICE INITIATIVE:                                                                             NL-AR-12-006
 Consolidation of Mail for Transportation
 Between Network Distribution Centers




      Figure 3. Costs, Mail Handling Workhours, Transportation, and Utilization


                                                                                  Contracted
                                                         Before
                                                                                 Consolidation
                                                      Consolidation
                                                                                  Operations


                TOTAL COSTS

                Mail Handling
                Workhours

                Transportation Costs


                Trailer Utilization


Moreover, we examined:

   Efficiency: We found that, although additional mail handling takes additional time
    and costs more for bulk mail consolidation, it did not have a negative impact on
    service.

   Total Costs: We concluded that total transportation costs significantly decrease
    when bulk mail is consolidated before long-distance transportation due to fewer trips
    and fuel savings. Moreover, consolidations help the Postal Service achieve fuel
    consumption goals 8 by reducing HCR fuel usage. 9

   Utilization: We found that contracted mail consolidators significantly improved trailer
    utilization. In fact, the mail consolidation process achieves savings by reducing the
    number of trips in a transportation lane by about 50 percent (see Figure 4).




8
  The Postal Service’s sustainability goal is to reduce vehicle petroleum fuel use by 20 percent by 2015.
9
  In the September 15, 2010 Purchase Plan NO concluded the “. . .expected reduction of trucks traversing the country
and the associated reduction in miles fits perfectly with the Postal Service’s mission to contain energy use and reduce
its carbon footprint.”



                                                          4
POSTAL SERVICE INITIATIVE:                                                                               NL-AR-12-006
 Consolidation of Mail for Transportation
 Between Network Distribution Centers




  Figure 4. Consolidation of the New Jersey NDC to Los Angeles NDC HCR Lane

                     BEFORE CONSOLIDATION (prior to September 2010)

          New Jersey NDC                                                             Los Angeles NDC




        Source: U.S. Postal Service                                                        Source: OIG

        Before the consolidation, there were eight daily one-way long haul HCR trips with a cost of about
        $13.3 million annually. Each trip costs the Postal Service about $4,600, which includes driver
        labor,2,800 miles traveled, and 435 gallons of diesel fuel consumed.

                        AFTER CONSOLIDATION (after September 2010)

         New Jersey NDC                                                               Los Angeles NDC




      Source: U.S. Postal Service                                                          Source: OIG

        As a result of 2:1 trailer consolidation, there are only four daily one-way long haul HCR trips with a
        cost of about $6.7 million annually. In addition, consolidation costs for the Postal Service are
        $1.4 million for mail handling and $0.5 million for shuttling trailers between the NDCs and
        consolidators. The result is in an overall net savings of about $4.7 million.


Consolidation Resource Options

We also evaluated resource options for the Postal Service to implement consolidation of
bulk mail. We concluded that the most favorable option for the Postal Service is to
continue consolidating bulk mail at contract facilities with contracted labor. We analyzed
the impacts by comparing a mix of labor and facilities. The arrows in Figure 5 indicate
increase or decrease in various costs and the green or red colors indicate positive or
negative movement.




                                                           5
  POSTAL SERVICE INITIATIVE:                                                                            NL-AR-12-006
   Consolidation of Mail for Transportation
   Between Network Distribution Centers




              Figure 5. Overall Costs Comparison of Options Available to the
                    Postal Service for Consolidation of NDC Bulk Mail

                                Contracted Mail         Postal Service            Contracted           Postal Service
                                   Handling              Facility with            Facility with         Facility with
                                Suppliers (Labor        Contracted Mail           Postal Mail           Postal Mail
                                 and Facility)          Handling Labor           Handler Labor         Handler Labor

Consolidation Mail
Handling Labor Costs

Facility Costs for
Sufficient Dock
Door/Floor Space for
Efficient Consolidation

  Moreover, we also examined:

      Postal Service Facility with Contract Labor: The option of having contracted mail
       handle labor performing work at the NDCs would allow the Postal Service to
       maintain its less expensive consolidation labor workforce; 10 however, management
       informed us that significant NDC infrastructure improvements would be required
       before consolidation operations could occur. 11 Given the current financial hardships
       the Postal Service is facing, capital investment funding is unlikely.

      Contract Facility with Postal Service Labor: The contracting of space option would
       provide the dock space necessary to perform consolidation operations efficiently.
       However, Postal Service wage rates are higher than contracted rates and this option
       may require hiring additional Postal Service mail handlers or moving mail handlers
       from other facilities, resulting in added costs. In addition, management would need
       to consider any union work issues and safety concerns based on the work conditions
       at the contractor locations, as they may be different from Postal Service facilities.
       This option would also provide less flexibility for the Postal Service. 12


  10
     Currently, contract labor costs the Postal Service about $17 less per hour than postal employees performing the
  same work.
  11
     NO management, as part of the Article 32 information provided to the U.S. Postal Service Office of Inspector
  General (OIG), estimated infrastructure, equipment, and facility space build-outs needed to perform consolidation and
  deconsolidation work at the tier 2 and 3 NDCs would exceed $13 million. These build-out costs included the addition
  of 56 new dock bays. We found no reason to dispute the Article 32 NDC infrastructure improvements identified by the
  Postal Service. Further, our NDC visits and observations corroborated NO and plant managements’ assertion that the
  current designs, layouts, and dock congestion would not accommodate this new work.
  12
     According to the Postal Service’s Plan to Prosperity 5 Year Business Plan, dated February 16, 2012, postal
  employee labor costs “create a fixed cost structure which is not readily scalable in response to changes in volume
  and revenue.”



                                                           6
POSTAL SERVICE INITIATIVE:                                                                             NL-AR-12-006
 Consolidation of Mail for Transportation
 Between Network Distribution Centers



    Postal Service Facility and Labor: The option of Postal Service mail handlers
     performing consolidation work at the NDCs would be the least favorable for the
     Postal Service. It would cost significantly more in labor to operate and be less
     flexible. 13 Additionally, management must make expensive infrastructure
     improvements to the affected NDCs. For example, according to Postal Service
     estimates, infrastructure improvements at the New Jersey NDC would cost about
     $2.1 million and improvements at the Los Angeles NDC would cost about
     $1.4 million. Finally, management expressed concern over union work rule violations
     and the safety of Postal Service employees performing consolidations.

Other Matters

During our review, we also identified other matters that provide opportunities for the
Postal Service to improve the mail consolidation initiative.

Consolidation Ratio and Highway Contract Route Lanes

Our analyses and observations of consolidation operations identified additional
opportunities for improvement and savings:
    The Postal Service could reduce at least an additional 6.9 million HCR miles
     annually by increasing the overall consolidation density and ratio to 2.5:1 on the
     original 19 pilot lanes. 14 This would result in an additional savings for the Postal
     Service of about $12 million over the 2 years (about $6.0 million annually) without a
     negative impact on service. Additionally, management should plan and implement
     any expansion to include additional lanes with an overall consolidation density ratio
     of 2.5:1.

    Mail bound for Puerto Rico and shipped under HCR contracts in sea containers was
     not included in NO’s Consolidation Initiative. 15 If this mail was included in the
     initiative and consolidated, the Postal Service could achieve additional savings of
     about $3.3 million over the 2 years (about $1.7 million annually). See Appendix C for
     additional information.




13
   We analyzed the Article 32 Comparative Analysis’s cost-savings figures provided by NO management on
September 13, 2011.
14
   We arrived at this conclusion because of observations/discussions in October 2011 that occurred during our review
of consolidation operations in Newark and Jacksonville. Specifically, we noted that more bulk mail could be placed in
trailers with careful manual loading/stacking (also known as bedloading) to the top of the trailers.
15
   We observed this in October 2011 during our review of Postal Service operations in Jacksonville, the shipping point
for the majority of bulk mail to Puerto Rico.



                                                          7
POSTAL SERVICE INITIATIVE:                                                                               NL-AR-12-006
 Consolidation of Mail for Transportation
 Between Network Distribution Centers




Postal Service Presence at Contractors’ Facilities

Based on observations and discussions with management, we noted the complete
absence of Postal Service presence at consolidation contractors’ facilities. During our
visits to the contract mail handling facilities in Kearny, NJ and Jacksonville, FL, we also
had concerns with mail accountability, Transportation Information Management
Evaluation System (TIMES) 16 data integrity, and improper use of mail transport
equipment (MTE). 17

A Postal Service onsite managerial presence at the contracted facilities would ensure
that:

    Mail is protected to prevent security breaches and exposure to theft.

    There is compliance with policies on locks/numbered security seals on trailer doors
     and HCR contract rules. 18

    There is proper MTE use and conservation.

    Employees record TIMES percentages correctly and consistently 19 so that
     management can better rely on the resulting data to make adjustments.

See Appendix D for additional information.

Recommendations

We recommend the vice president, Network Operations:

1. Continue to pursue opportunities to consolidate long distance transportation routes.

2. Pursue an overall trailer consolidation ratio of 2.5:1 in the original 19 consolidation
   pilot transportation lanes and all subsequent expansion lanes.



16
   TIMES collects data about the arrival and departure of mail truck transportation and trailer utilization, among other
things. The information in the system is available to other Postal Service processing facilities for managing their
operations.
17
   MTE is a system of containers (such as sacks and pouches, trays, wheeled containers, and pallets) used to contain
mail during processing or transportation within or among facilities by the Postal Service, its customers, or contractors.
18
   As described in Section 476, Sealing Program and Procedures, in the Postal Operations Manual – Issue 9, dated
July 2002 (updated with Postal Bulletin revisions through December 1, 2011).
19
   Contracted employees are responsible for recording key utilization/MTE data into TIMES. This data includes, for
example, stating that a consolidated trip was dispatched with a 90 percent trailer volume (90 percent of the trailer’s
floor was covered with mail/MTE), contract mail handlers’ bedloaded mail (floor to ceiling) onto 60 percent of that
trailer, and 32 pallets were used during the loading of the trailer.



                                                           8
POSTAL SERVICE INITIATIVE:                                                                             NL-AR-12-006
 Consolidation of Mail for Transportation
 Between Network Distribution Centers



3. Add Jacksonville Network Distribution Center’s Puerto Rico Highway Contract
   Routes 32202 and 32204 into the Consolidation Initiative.

4. Ensure Postal Service managerial oversight at the contract consolidation facilities.

Management’s Comments

Management generally agreed with our recommendations. 20 Management stated that
they expanded consolidation to an additional 11 lanes effective in February 2012.
Further, management stated they would continue to evaluate additional opportunities for
expansion and continue to monitor utilization to ensure they are maximizing their
opportunities in pursuit of a ratio of 2.5:1 or better. Management also agreed to evaluate
the opportunity of the Jacksonville - San Juan transportation lanes, taking into
consideration the requirements in both locations relative to the consolidation and
deconsolidation components. With regard to recommendation 4, management indicated
they would establish a process for locally managed quarterly meetings between Postal
Service management and the suppliers to address customer-supplier irregularities.

Management did not agree with our monetary impact. Management asserted they are
currently achieving our recommended 2.5:1 consolidation ratio. Additionally,
management expressed concerns over the cost considerations in our analysis of the
Jacksonville – San Juan lanes, including the lack of consideration for the additional
costs of THS deconsolidation. See Appendix E for management’s comments in their
entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendations 1, 2, and
3, and corresponding corrective actions should resolve the issues identified in the
report. With respect to recommendation 4, we believe management’s action plan does
not provide adequate Postal Service oversight needed at the subject facilities. Without
an onsite Postal Service managerial presence, the Postal Service’s interests are not
adequately protected. Specifically, we believe mail theft and other security breaches
might occur, MTE may be misused, and transportation data may not be adequately
captured. We will continue working with management on implementing this
recommendation during the closeout process and, if unresolved, we will pursue it
through the formal audit resolution process.

Regarding monetary impact, we based our analyses of the trailer utilization ratio on the
initial 19 lane pilot consolidation requirement of a 2:1 ratio, which is what contractors
were following at the time of the pilot. We were informed in May 2012 that the additional
11 lanes and other changes subsequent to the pilot period have resulted in a current

20
  Management did not explicitly state agreement with our findings in their response; however, they agreed in the exit
conference with the findings and agreed in the response to implement the recommendations.



                                                          9
POSTAL SERVICE INITIATIVE:                                                  NL-AR-12-006
 Consolidation of Mail for Transportation
 Between Network Distribution Centers



ratio approaching 2.5:1, and we acknowledge management’s efforts to improve the
consolidation ratio.

Concerning management’s disagreement with our projected savings for the Jacksonville
– San Juan lanes, we based our projected $1.7 million in net annual savings on a gross
savings of $2.1 million. The net savings include reductions for THS consolidation labor
and shuttling of sea containers in Jacksonville and for Postal Service employee
deconsolidation in San Juan and adjustments for the transport of sea containers in San
Juan. We believe that our calculations are valid and we will continue to work with
management on these analyses through the process for closing significant
recommendations.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                            10
POSTAL SERVICE INITIATIVE:                                                         NL-AR-12-006
 Consolidation of Mail for Transportation
 Between Network Distribution Centers




                              Appendix A: Additional Information

Background

The Postal Service’s NDCs are part of a national system consisting of 21 automated
mail processing facilities linked by a dedicated transportation network. The system
incorporates processing facilities and a transportation network dedicated to handling
and moving bulk mail and some other classes of mail. NO is responsible for
domestic mail processing and transportation networks. Recognizing the opportunity for
making better use of the available space in trailers being sent long distances between
NDCs (in this network) would result in significant savings in both overall transportation
costs and fuel usage. In September 2010, NO began a pilot to reduce the number of
HCR trips on New Jersey's Denver and Los Angeles NDC transportation lanes.

The consolidation pilot’s goal was to have contractors consolidate two HCR trips into
one trip (2:1) by better utilizing the cubic space in the trailers. To do this, management
modified existing THS contracts on a short-term basis to provide the contract assistance
needed near the NDCs. Because of NO’s initial successes in these two dedicated
transportation lanes, the Postal Service expanded the pilot to 17 additional
transportation lanes within the national NDC network.

           Table 1. Consolidation Pilot - 19 Dedicated Transportation Lanes
  Origin NDC (Number of                Destination NDCs (*Initial lanes)
  lanes)
                                       Denver*, Los Angeles*, Dallas, Jacksonville, and
  New Jersey (5)
                                       Memphis
  Dallas (1)                           Des Moines
  Denver (2)                           Jacksonville and Pittsburgh
  Greensboro (3)                       Dallas, Denver, and Jacksonville
  Los Angeles (2)                      Jacksonville and Greensboro
  Memphis (3)                          Jacksonville, Los Angeles, and Seattle
  Seattle (3)                          Des Moines, Greensboro, and New Jersey


At the conclusion of testing in September 2011, NO reported successes including a
reduction of 17 million miles for contracted transportation and a net 6-month savings
(April – September 2011) of about $4 million. On September 13, 2011, NO informed us
that the consolidation of existing dedicated bulk mail transportation lanes would
continue (see Table 1) and expand significantly in fiscal year (FY) 2012. On
December 12, 2011 NO provided us with its preliminary FY 2012 expansion plans for its
consolidation initiative. We reviewed these plans and noted an additional 22 bulk mail
transportation lanes were being considered; however, the effective dates of their
implementation were not identified.


                                                 11
POSTAL SERVICE INITIATIVE:                                                                            NL-AR-12-006
 Consolidation of Mail for Transportation
 Between Network Distribution Centers




Objective, Scope, and Methodology

Our objective was to assess the efficiency of the Postal Service’s pilot for consolidating
(loading, unloading, and utilization) long-distance HCRs between NDCs. We
accomplished this objective by examining existing mail transportation practices and the
pilot consolidation initiative. During our work, we visited Postal Service Headquarters
and the Jacksonville and New Jersey NDCs. We observed consolidation operations
being performed by contract mail handlers at their facilities in Kearny, NJ and
Jacksonville, FL. We also reviewed relevant Postal Service policies and procedures,
interviewed managers and employees, and observed and photographed operations.

To identify any related cost savings, we obtained and analyzed relevant system data
and documents including:

    NO management provided Consolidation Pilot Article 32 Comparative Analysis
     Report 21 with detailed costs and savings documentation.

    Transportation Contract Support System recent and historical HCR cost data (such
     as, contract terms, rates, fuel, schedules, dates, and so forth.) obtained between
     December 2011 and January 2012.

    TIMES data for the period October 2010 through November 2011.

We noted several weaknesses in the computer-generated data that limited our work.
For example, some TIMES records were missing data and inaccurate load volumes.
Although these limitations constrained our work, we were able to compensate by
applying alternate audit procedures, including observation, cross-comparison, and
discussion with appropriate officials. We also applied conservative principles, such as
using discounted cash flows for our cost-saving estimates.

We conducted this performance audit from August 2011 through May 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on March 20, 2012, and included their
comments where appropriate.


21
  Recognizing the savings/successes the consolidation pilot was achieving, NO management prepared detailed
costs and savings documentation (known as the Comparative Analysis Report). On September 12, 2011, in
accordance with Article 32 of the Postal Service’s union labor relations agreement with the National Postal Mail
Handlers Union for subcontracting of mail handling work, management informed the union of their decision to
continue and expand this practice.



                                                         12
POSTAL SERVICE INITIATIVE:                                                       NL-AR-12-006
 Consolidation of Mail for Transportation
 Between Network Distribution Centers



Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this audit.




                                             13
POSTAL SERVICE INITIATIVE:                                                                             NL-AR-12-006
 Consolidation of Mail for Transportation
 Between Network Distribution Centers




                                    Appendix B: Monetary Impacts

                 Finding                        Impact Category                           Amount
            Opportunities for
             Improving the                 Funds Put to Better Use 22                    $12,003,861
             Consolidation
            Initiative (2.5:1)
            Expansion of the
             Consolidation                  Funds Put to Better Use                         3,361,671
             Initiative (Mail
            Bound for Puerto
                   Rico)
                   Total                                                              $ 15,365,532 23

                    Table 2. Consolidation Initiative (2.5:1) by Fiscal Year


            2-Year Projection                  FY                FY                      FY
                 (2.5:1)
                                             2013              2014                    Totals

             NPV HCR Savings             $1,959,761        $1,910,098              $ 3,869,859

              NPV Fuel Savings           $4,098,962        $4,035,040              $ 8,134,002
           Monetary Impact – limited to 2 years per OIG
                                                                                   $12,003,861
           policy

               Table 3. Consolidation Initiative (Mail Bound for Puerto Rico)
                                      by Fiscal Year

            2-Year Projection                 FY                FY                      FY
                 (2.5:1)                     2013              2014                    Totals
             NPV HCR Savings $1,702,406                    $1,659,265              $ 3,361,671
           Monetary Impact – limited to 2 years per OIG
                                                                                   $ 3,361,671
           policy



22
   Funds that could be used more efficiently by implementing recommended actions. The average contract term for
these long distance HCRs was about 3 years; however, our calculated monetary impact is conservative by limiting it
to 2 years.
23
   The first year of monetary impact is conservative to allow for implementation during the year. The second year of
monetary impact is conservatively reduced by net present value (NPV). The average contract term for the PR sea
container HCRs was about 5.5 years; however, our calculated monetary impact is conservative by limiting it to 2
years.



                                                         14
POSTAL SERVICE INITIATIVE:                                                                          NL-AR-12-006
 Consolidation of Mail for Transportation
 Between Network Distribution Centers




     Appendix C: Analysis of Surface Mail from Jacksonville Network Distribution
                               Centers to Puerto Rico

While at the Jacksonville NDC, we observed mail being loaded into sea containers
bound for Puerto Rico on HCRs 32202 and 32204. The mail consisted of pallets of letter
trays and flat tubs, shrink-wrapped parcels on pallets, and parcels in boxes on pallets.
Less than half the available cubic feet was used (see Figure 6).

             Figure 6. Mail Loaded in Sea Containers Bound For Puerto Rico




                         Source: OIG                                      Source: OIG


We observed similar mail at the Jacksonville Cargo Force THS facility arriving from the
New Jersey NDC to be transported to Puerto Rico (see Figure 7). The mail from the
New Jersey NDC to Puerto Rico could have been staged at the THS and consolidated
into the sea containers without having to go to the Jacksonville NDC and return. The
New Jersey NDC is likely the heaviest generator of mail to Puerto Rico outside of
Florida. 24

                   Figure 7. Parcels in Postal Paks Bound for Puerto Rico




                                                   Source: OIG



24
  The audit team observed large volumes of mail – all palletized – bound for Puerto Rico at the Newark Cargo Force
THS being loaded into trailers going to the Jacksonville NDC.



                                                        15
POSTAL SERVICE INITIATIVE:                                                                             NL-AR-12-006
 Consolidation of Mail for Transportation
 Between Network Distribution Centers



The mail in sea containers headed to Puerto Rico could easily be consolidated
(bedloaded to at least a 2:1 ratio 25) in Jacksonville; thereby, reducing about 50 percent
of sea containers dispatched from Jacksonville to Puerto Rico.

An annual average of 1,685 sea containers have been sent from Jacksonville NDC to
San Juan, PR via HCRs 32202 and 32204 in the last 2 years. Consolidation of this mail
could save the Postal Service about $3.3 million over the next 2 years (about
$1.7 million annually).




25
  This can easily be accomplished without exceeding the sea containers’ weight capacity, which is 67,200 pounds
gross with 58,730 pounds of net payload available for mail after deducting the container tare weight of 8,470 pounds.
Tare weight is the weight of an object when it is empty.



                                                         16
POSTAL SERVICE INITIATIVE:                                                                            NL-AR-12-006
 Consolidation of Mail for Transportation
 Between Network Distribution Centers



        Appendix D: Lack of Postal Service Presence at Contractors' Facilities

Based on observations and discussions with management, we noted the absence of a
Postal Service presence at consolidation contractors’ facilities. The consolidation
operation differs from FedEx THS operations in that the FedEx mail has distribution and
routing tags on all mail-handling units and is scanned and tracked. Bulk mail at
consolidators’ facilities is not tracked. The opportunity for theft is great. In addition,
packages have been reported missing and rifled (the packaging appeared to be open or
excessively handled) 26 and HCR numbered security seals are being removed and
applied by contract employees with little or no accountability. We observed some critical
TIMES information entered by contract employees to be erroneous and inconsistent for
many HCR trips (see Table 4). 27 We observed some MTE being misused and abused.
In summary, we believe a Postal Service onsite managerial presence at the contracted
facilities is necessary.

             Table 4. OIG Review of Recorded (October and November 2011)
                                TIMES Data Consistency
                                                                          Consistently
                                                  Consistently                                   Consistently
                           Consolidator’s                                   Recorded
     Consolidation                               Recorded Total                                 Recorded MTE
                           TIMES Facility                                    Trailer
      Destination                                    Trailer                                      Container
                               Code                                       Bedloading 28
                                                    Volumes                                        Usage
                                                                           Percentage
 Dallas NDC                    DFWTH                     Yes                   No                      No
 Denver NDC                    DENTH                     Yes                   No                      Yes
 Des Moines NDC                50ABX                     No                    No                      No
 Greensboro NDC                27MTE                     Yes                  Yes                      Yes
 Jacksonville NDC              JAXCF                     Yes                   No                      No
 Los Angeles NDC               LATHS                     Yes                   No                      No
 Memphis NDC                     38H                     Yes                   No                      No
 New Jersey NDC                EWRTH                     Yes                  Yes                      Yes
 Pittsburgh NDC                 PITTH                    Yes                   No                      Yes
 Seattle NDC                   98ATO                     Yes                   No                      Yes




26
   We confirmed that rifled and missing mail incidents have been timely reported to the Inspection Service.
27
   We obtained and analyzed TIMES data for a consecutive 4-week period (October 12, 2011, through
November 9, 2011) and compared the sending and receiving contractor facilities’ reported volumes and bedloading
percentages, as well as MTE usage. We determined the recordings to be inconsistent when our analyses and
comparison of the sending and receiving facilities recordings in TIMES showed significant discrepancies or
omissions.
28
   Management refers to bedloading of a trailer as a process where mail handlers manually stack mail (trays, sacks,
parcels, and so forth) from bottom to top of the bed/from the front of the trailer to the back.



                                                         17
POSTAL SERVICE INITIATIVE:                                      NL-AR-12-006
 Consolidation of Mail for Transportation
 Between Network Distribution Centers




                            Appendix E: Management’s Comments




                                            18
POSTAL SERVICE INITIATIVE:                       NL-AR-12-006
 Consolidation of Mail for Transportation
 Between Network Distribution Centers




                                            19
POSTAL SERVICE INITIATIVE:                       NL-AR-12-006
 Consolidation of Mail for Transportation
 Between Network Distribution Centers




                                            20
